No. ______
IN THE

Supreme Court of the United States
__________
JAMES W. RICHARDS, IV,
Petitioner,
v.
MATTHEW P. DONOVAN,
ACTING SECRETARY OF THE AIR FORCE,
COLONEL BRIAN S. GREENROAD,
COMMANDER, AIR FORCE SECURITY FORCES CENTER,
COLONEL CAROLINE K. HORTON,
COMMANDANT, U.S. DISCIPLINARY BARRACKS,
Respondents.
__________
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Armed Forces
__________
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI
__________
MARK C. BRUEGGER
Counsel of Record
Air Force Legal Operations Agency
1500 West Perimeter Road, Suite 1100
Joint Base Andrews, MD 20762
(240) 612-4782
mark.c.bruegger.civ@mail.mil

Counsel for Petitioner

TABLE OF CONTENTS
United States Court of Appeals
for the Armed Forces, Order
(Mar. 1, 2019) ......................................................... 4a
United States Court of Appeals
for the Armed Forces, Order
(Jan. 31, 2019) ........................................................ 6a
United States Air Force
Court of Criminal Appeals, Opinion
(Oct. 19, 2018) ........................................................ 8a
United States Court of Appeals
for the Armed Forces, Opinion
(Jul. 13, 2017)......................................................... 30a
Petition for Extraordinary Relief in the
Nature of a Writ of Mandamus
(Appendices Omitted)
(Jun. 4, 2017) ......................................................... 45a
United States Air Force
Court of Criminal Appeals, Order
(Jun. 16, 2017) ....................................................... 51a
Motion to Submit Document and
Motion for Leave to File Motion
To Dismiss
(Aug. 29, 2018) ....................................................... 55a

(2a)

Petition for Extraordinary Writ in the
Nature of a Writ of Mandamus
(Appendices Omitted)
(May 30, 2018)........................................................ 62a

(3a)

UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES
Washington, D.C.

James W.
Richards IV,

Appellant

USCA Dkt. No. 19-0093/AF
Crim.App. No. 2018-07

v.

ORDER

Deborah Lee
James,
Secretary of the United States Air Force,
Brian S.
Greenroad, Colonel, Commander,
Air Force Security Forces Center,
and
D.L. Hinton,
Colonel, Commandant,
United States Disciplinary Barracks,
Appellees
On consideration of Appellant’s motion for
reconsideration of this Court’s order issued January

(4a)

31, 2019, it is, by the Court, this 1st day of March,
2019,
ORDERED:
That the petition for reconsideration is hereby
denied.
For the Court,*
/s/ Joseph R. Perlak
Clerk of the Court
____________
* While captioned as a motion for reconsideration, the
pleading invokes C.A.A.F. R.31, Petition for
Reconsideration, and has been construed by the Court
as such.
cc:

The Judge Advocate General of the Air Force
Appellate Defense Counsel (McCammon)
Appellate Government Counsel (Payne)

(5a)

UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES
Washington, D.C.

James W.
Richards IV,

Appellant

USCA Dkt. No. 19-0093/AF
Crim.App. No. 2018-07

v.

ORDER
Deborah Lee
James,
Secretary of the United States Air Force,
Brian S.
Greenroad, Colonel, Commander,
Air Force Security Forces Center,
and
D.L. Hinton,
Colonel, Commandant,
United States Disciplinary Barracks,
Appellees
On consideration of the writ-appeal petition, it
is, by the Court, this 31st day of January, 2019,
ORDERED:

(6a)

That the writ-appeal petition
dismissed for lack of jurisdiction.

is

hereby

For the Court,
/s/ Joseph R. Perlak
Clerk of the Court
cc:

The Judge Advocate General of the Air Force
Appellate Defense Counsel (McCammon)
Appellate Government Counsel (Payne)

(7a)

UNITED STATES AIR FORCE
COURT OF CRIMINAL APPEALS
________________________
Misc. Dkt. No. 2017–04
________________________
James W. RICHARDS, IV
Lieutenant Colonel (O-5), U.S. Air Force, Petitioner
v.
Deborah Lee JAMES
Secretary of the Air Force
Brian S. GREENROAD
Colonel (O-6), United States Air Force
Commander, Air Force Security Forces Center
D. L. HILTON
Colonel (O-6), United States Army
Commandant, United States Disciplinary Barracks
Respondents
________________________
Review of Petition for Extraordinary Relief in the
Nature of a Writ of Mandamus
Decided 19 October 2018
________________________

(8a)

Military Judge: Mark L. Allred.
Approved sentence: Dismissal, confinement for 17
years, and forfeiture of all pay and allowances.
Sentence adjudged 21 February 2013 by GCM
convened at Tyndall Air Force Base, Florida.
For Petitioner: Lieutenant Colonel Nicholas W.
McCue, USAF; Lieutenant Colonel Shane A.
McCammon, USAF. 1
For Respondent: Colonel Katherine E. Oler, USAF;
Lieutenant Colonel Joseph J. Kubler, USAF; Mary
Ellen Payne, Esquire.
Before MAYBERRY, HARDING,
Appellate Military Judges.

and

MINK,

Senior Judge HARDING delivered the opinion of the
court, in which Chief Judge MAYBERRY and Judge
MINK joined.
________________________
This is an unpublished opinion and, as
such, does not serve as precedent under
AFCCA Rule of Practice and Procedure
18.4.
________________________

1

Petitioner’s initial petition was filed pro se.

(9a)

HARDING, Senior Judge:
Petitioner submitted a Petition for Extraordinary
Writ in the Nature of a Writ of Mandamus alleging
that Respondent’s calculation of Petitioner’s good
conduct time (GCT) confinement credits violates
Article I, Section 9, Clause 3 of the United States
Constitution—the Ex Post Facto Clause. To remedy
the alleged ex post facto application of the rule for GCT
calculations, Petitioner requests that this court issue
a writ of mandamus ordering Respondent to calculate
his GCT credits in accordance with a prior and more
favorable rule. For the reasons set forth below, we
deny the petition.
I. BACKGROUND
Contrary to his pleas, Petitioner was convicted of
one specification of possession of child pornography
and five specifications of indecent acts with a male
under sixteen years of age, both in violation of Article
134, Uniform Code of Military Justice (UCMJ), 10
U.S.C. § 934; and four specifications of failing to obey
a lawful order in violation of Article 92, UCMJ, 10
U.S.C. § 892. Important to the resolution of this
petition for relief, the earliest of Petitioner’s offenses
were committed by him on or about 10 June 2005. On
21 February 2013, a military judge, sitting alone,
sentenced Petitioner to a dismissal, seventeen years
confinement, and forfeiture of all pay and allowances.
The convening authority approved the adjudged
sentence. This court affirmed the findings and
sentence. United States v. Richards, No. ACM 38346,

(10a)

2016 CCA LEXIS 285 (A.F. Ct. Crim. App. 2 May
2016) (unpub. op.), aff’d, 76 M.J. 365 (C.A.A.F. 2017),
cert. denied, ___U.S.___, 138 S. Ct. 2707 (2018).
On 26 March 2013, Petitioner was transferred to
the United States Disciplinary Barracks (USDB) at
Fort Leavenworth, Kansas. Petitioner’s Minimum
Release Date (MRD), as determined by USDB officials
on 1 July 2015, is 1 January 2026. Petitioner’s MRD
was determined in part by the application of GCT
credits to his sentence to confinement at a rate of five
days per month. Petitioner contends that using the
rate of five days per month was an ex post facto
application of a rule changed after the dates of his
offenses and adjudged sentence. Petitioner asserts
that his MRD should have been determined by using
a GCT rate of ten days per month. As the effective
dates of the military regulations establishing and
changing the rules for GCT calculations are essential
to evaluating Petitioner’s claim, we will briefly trace
the history of Air Force policy on this matter.
In 1964, the Air Force issued Air Force Regulation
125-30, Apprehension and Confinement, Military
Sentences to Confinement (6 Nov. 1964) [retitled
Armed Forces Joint Instruction (AFJI) 31–215,
Military Sentences to Confinement (1964)], which
directed GCT for sentences adjudged on or after 31
May 1951 at a rate of [t]en days for each month of the
sentence for a sentence of 10 years or more, excluding
life.” Id. ¶ 13.

(11a)

In 2001, the Department of Defense (DoD) issued
Department of Defense Instruction (DoDI) 1325.7,
Administration of Military Correctional Facilities and
Clemency and Parole Authority (17 Jul. 2001). This
issuance provided in pertinent part that for sentences
of ten years or more, prisoners would receive ten days
of credit for each month of the sentence served. Id. ¶
E26.1.1.5. This instruction applied to all DoD
components to include the Department of the Air
Force. Id. ¶ 2.
In 2004, the Air Force issued Air Force Instruction
(AFI) 31–205, The Air Force Corrections System (7
Apr. 2004), which governed confinement and
sentences in the Air Force. For the determination of
GCT, the Air Force implemented DoDI 1325.7 as
follows:
The accurate computation of inmate
sentences
ensures
proper
administration. It is also an essential
element in protecting inmate legal
rights. The confinement officer or
designated corrections staff member
computes sentence and Good Conduct
Time (GCT) according to DoDI 1325.7,
Administration of Military Correctional
Facilities and Clemency and Parole
Authority and AFJI 31–215, Military
Sentences to Confinement.
AFI 31–205, ¶ 5.7.

(12a)

On 23 June 2004, a little over two months after the
issuance of AFI 31–205, the Under Secretary of
Defense for Personnel and Readiness (USD (P&R))
issued, a directive-type memorandum (DTM), Change
to DoD Policy on Abatement of Sentences to
Confinement, amending DoDI 1325.7. Under this
DTM, GCT would “be awarded at a rate of 5 days for
each month of confinement . . . regardless of sentence
or multiple sentence length.” Id. ¶ A2.2.1. This change
applied only to findings of guilt for offenses which
occurred after 1 October 2004, when the DTM became
effective. Id. ¶ A2.2.2.
On 17 September 2004, the USD (P&R) released
another DTM, Clarification of DoD Policy on
Abatement of Sentences to Confinement. This
September DTM clarifies paragraph A2.2.2. from the
June DTM by amending it as follows: “[w]ith respect
to sentences adjudged prior to January 1, 2005, GCT
shall be awarded at the rates specified in DoD
Instruction 1325.7, enclosure 26”—a rate of 10 days
per month for sentences of 10 years or more. This
change would be incorporated in the next version of
DoDI 1325.7. Id.
In March 2013, the DoD reissued DoDI 1325.7 as
DoDI
1325.07,
Administration
of
Military
Correctional Facilities and Clemency and Parole
Authority (11 Mar. 2013). The reissued DoDI
superseded and cancelled the two USD (P&R) DTMs
issued on 23 June and 17 September 2004, but
maintained the rule that prisoners whose sentences
were adjudged after 31 December 2004 would earn

(13a)

GCT at a rate of five days per month. DoDI 1325.07,
Enclosure 2, Appendix 3 ¶ 2.b.(2).
In June 2015, the Air Force issued AFI 31–105, Air
Force Corrections System (15 Jun. 2015), which
superseded AFI 31–205, dated 7 April 2004, and
contained specific provisions for sentence computation
and GCT calculations:
For sentences adjudged on 26 Jul 2004 or
before, contact the USDB or AFSFC/SFC
[Air Force Security Forces Center,
Corrections Division] where copies of the
AFJI 31–215, Armed Forces Joint
Instruction, Military Sentences to
Confinement, dated 1964 are maintained
for those under its jurisdiction. For
sentences adjudged on 27 Jul 2004 or
after, IAW DoDI 1325.07, use DoD
1325.7-M, DoD Sentence Computation,
Chapter 2, to calculate sentences. In
either case, use the DD Form 2710–1,
Inmate Sentence Information, or a
computer-generated equivalent to show
math work on sentence calculations.
NOTE: The paragraphs contained in
5.6.1. – 5.6.8.1.4. below provide a quick
reference to the format. For more in
depth information, refer to the DoDI and
DoDM [DoD Manual] which take
precedence.

(14a)

Id. ¶ 5.6.
AFI 31–105 continues: “GCT is awarded at a rate
of 5 days for each month of confinement, and for that
portion of any sentence to confinement not expressed
in full years and months (1 day for each 6-day portion
of a month, see Table 5.1.), regardless of sentence
or multiple sentence length.” Id. ¶ 5.6.2.3.
As noted above, Petitioner’s MRD was calculated
on 1 July 2015 using the GCT rate of five days per
month for each month of confinement. In calendar
year 2016, Petitioner variously requested that the
Commander of the Air Force Security Forces Center,
the Commander of the Air Force Installation and
Support Center, and the Air Force Clemency and
Parole Board grant him relief from what he asserted
was an inaccurate calculation of his GCT. Petitioner’s
requests, whether presented as an Article 138, UCMJ,
10 U.S.C. § 938, complaint, or a clemency request,
were uniformly denied.
II. DISCUSSION
At the outset we note that Petitioner does not
directly challenge the legality or appropriateness of
his approved sentence in this petition. Rather, as he
did in his requests to other Air Force authorities on
this matter, he takes issue with the calculation of his
MRD by prison officials using a GCT credit rate of five
days per month instead of ten days per month. As the
issue Petitioner raises concerns a matter not directly
connected to the legality or appropriateness of the

(15a)

approved sentence, we must first determine whether
we have jurisdiction to review this petition for an
extraordinary writ.
A. Jurisdiction
Jurisdiction is a question of law we review de novo.
Randolph v. HV, 76 M.J. 27, 29 (C.A.A.F. 2017)
(quoting LRM v. Kastenberg, 72 M.J. 364, 367
(C.A.A.F. 2013)).2
“The burden to establish
2

In addition to arguing that military courts do not have
jurisdiction to review GCT matters on direct review under Article
66(c), UCMJ, 10 U.S.C. § 866(c), and thus do not have authority
to issue extraordinary writs for GCT matters, the Respondent
raises two additional jurisdictional bases to dismiss the petition.
Citing to Moore v. Akins, 30 M.J. 249 (C.M.A. 1990), Respondent
posits that this court does not have jurisdiction to address this
writ while the case is pending at the United States Court of
Appeals for the Armed Forces (CAAF) or the United States
Supreme Court. We note that as of 13 July 2017, Petitioner’s case
was no longer pending at CAAF, and on 28 June 2018 the United
States Supreme Court denied certiorari. Citing to this court’s
opinions in Chapman v. United States, 75 M.J. 598 (A.F. Ct.
Crim. App. 2016), and Sutton v. United States, ___ M.J. ___,
Misc. Dkt. No. 2018-01, 2018 CCA LEXIS 349 (A.F. Ct. Crim.
App. 13 Jul. 2018), the Respondent argues that since Petitioner’s
court-martial has completed direct review under Article 71,
UCMJ, 10 U.S.C. § 871, and as of 27 August 2018—the date the
Secretary of the Air Force ordered Petitioner’s dismissal
executed the case is final under Article 76, UCMJ, 10 U.S.C. §
876,—this court lacks jurisdiction to address or grant Petitioner’s
request for extraordinary relief. We note that as of 4 June 2018
this petition was docketed with this court, Respondent answered
the petition on 21 June 2018, and Petitioner replied on 27 July
2018—all before Petitioner’s case was final under Article 76,
UCMJ. We decline to dismiss the petition on either of these

(16a)

jurisdiction rests with the party invoking the court’s
jurisdiction.” United States v. LaBella, 75 M.J. 52, 53
(C.A.A.F. 2015) (citation omitted).
“The All Writs Act, 28 U.S.C. § 1651(a), grants this
court authority to issue extraordinary writs necessary
or appropriate in aid of its jurisdiction.” Chapman v.
United States, 75 M.J. 598, 600 (A.F. Ct. Crim. App.
2016) (citing Loving v. United States, 62 M.J. 235, 246
(C.A.A.F. 2005)). “However, the Act does not enlarge
our jurisdiction, and the writ must be in aid of our
existing statutory jurisdiction.” Id. (citing Clinton v.
Goldsmith, 526 U.S. 529, 534–35 (1999)). “The courts
of criminal appeals [(CCAs)] are courts of limited
jurisdiction, defined entirely by statute.” United
States v. Arness, 74 M.J. 441, 442 (C.A.A.F. 2015)
(citation omitted). Thus to determine whether we
have authority to grant this extraordinary writ, we
must determine whether the matter of GCT is within
our existing statutory jurisdiction under Article 66(c),
UCMJ, 10 U.S.C. § 866(c).
The scope and meaning of Article 66(c), UCMJ, is
a matter of statutory interpretation, which, as a
question of law, is reviewed de novo. See United States
v. Schloff, 74 M.J. 312, 313 (C.A.A.F. 2015) (citations
omitted). Article 66(c), UCMJ, establishes the
jurisdiction of a CCA as follows:
jurisdictional grounds and instead deny the petition on the
merits.

(17a)

In a case referred to it, the [CCA] may
act only with respect to the findings and
sentence as approved by the convening
authority. It may affirm only such
findings of guilty, and the sentence or
such part or amount of the sentence, as
it finds correct in law and fact and
determines, on the basis of the entire
record, should be approved. In
considering the record, it may weigh the
evidence, judge the credibility of
witnesses, and determine controverted
questions of fact, recognizing that the trial court saw and heard the witnesses.
10 U.S.C. § 866(c).
The CAAF has recognized that the calculation of
good time credit is primarily a matter for confinement
officials. In United States v. Spaustat, where the
parties agreed the appellant was entitled to five days
of credit per month, but disagreed as to how it should
be computed, CAAF stated:
We need not resolve the disagreements
about the computation of good time. The
UCMJ and the Manual for CourtsMartial make no provision for good time
credit.
The
responsibility
for
determining how much good time credit,
if any, will be awarded is an
administrative responsibility, vested in

(18a)

the commander of the confinement
facility.
57 M.J. 256, 263 (C.A.A.F. 2002) (citations omitted).
The CAAF further explained “[j]udicial review of
disputes about good time credit occurs only upon
application for an extraordinary writ, not on direct
review of the sentence.” Id. (citations omitted).
In United States v. Pena, 64 M.J. 259 (C.A.A.F.
2007), an appellant challenged the authority of the
DoD to establish the Mandatory Supervised Release
program wherein he was required to participate in the
program during the time from his MRD until his
maximum release date. In deciding that case, the
CAAF noted that “[o]n direct appeal, the scope of our
review does not extend to supervision of all aspects of
the confinement and release process.” Id. at 264 (citing
United States v. Towns, 52 M.J. 830, 833 (A.F. Ct.
Crim. App. 2000)). The CAAF further explained:
Our review of post-trial confinement and
release conditions on direct appeal is
limited to the impact of such conditions
on the findings and the sentence.
Accordingly, our review in the present
appeal focuses on whether the post-trial
conditions at issue: (1) constituted cruel
or unusual punishment or otherwise
violated an express prohibition in the
UCMJ;
(2)
unlawfully
increased

(19a)

Appellant’s punishment; or (3) rendered
his guilty plea improvident.
Id. (emphasis added) (citations omitted); see also
United States v. White, 54 M.J. 469, 472 (C.A.A.F.
2001) (a CCA has the “authority to ensure that the
severity of the adjudged and approved sentence has
not been unlawfully increased by prison officials . . . .”
(citation omitted)).
Applying the narrow framework of Pena, we note
Petitioner has not asserted the calculation of GCT in
his case constitutes cruel or unusual punishment or a
violation of an express prohibition of the UCMJ.
Further, Petitioner pleaded not guilty so the
providence of a guilty plea is not at issue. Petitioner,
however, framing the GCT calculation as a violation
of the Ex Post Facto Clause, has raised an issue as to
whether the GCT credit is being calculated in a
manner that has unlawfully increased Petitioner’s
punishment.
Were this petition merely about whether or not
prison officials had abused their discretion in denying
Petitioner some amount of GCT credit due to their
determination
that
Petitioner
had
violated
confinement rules, for example, we might well agree
with Respondent that such a dispute would lie outside
of our jurisdiction. However, as the gravamen of this
petition is that Petitioner’s MRD of 1 January 2026
was wrongly determined by prison officials and that
the determination adds 1020 days to the total number
of days of confinement to be served by Petitioner, we

(20a)

conclude that we have the authority to review whether
Petitioner’s approved sentence to confinement is being
unlawfully increased.
B. Writ of Mandamus
Petitioner seeks relief through a writ of
mandamus. A writ of mandamus is used, inter alia,
“to compel [officers and commanders] to exercise
[their] authority when it is [their] duty to do so.” Dew
v. United States, 48 M.J. 639, 648 (A. Ct. Crim. App.
1998) (quoting Roche v. Evaporated Milk Ass’n, 319
U.S. 21, 26 (1943)). To prevail on a writ of mandamus,
the petitioner “must show that: (1) there is no other
adequate means to attain relief; (2) the right to
issuance of the writ is clear and indisputable; and (3)
the issuance of the writ is appropriate under the
circumstances.” Hasan v. Gross, 71 M.J. 416, 418
(C.A.A.F. 2012) (citing Cheney v. United States Dist.
Court, 542 U.S. 367, 380–381 (2004)). The Respondent
has not raised failure to exhaust as a reason to deny
the petition. We are satisfied that Petitioner has
exhausted his administrative options and has
sufficiently shown there is no other adequate means
to attain relief.3 Whether Petitioner’s right to issuance
3

We do not mean to infer that this court is Petitioner’s only
option for relief. The Supreme Court has stated that the federal
district courts have jurisdiction over habeas corpus petitioners
who are imprisoned as a result of court-martial convictions: “The
federal civil courts have jurisdiction over such applications. By
statute, Congress has charged them with the exercise of that
power.” Burns v. Wilson, 346 U.S. 137, 139 (1953) (footnote
omitted).

(21a)

of the writ is clear and indisputable and the writ is
appropriate under the circumstances depends on
whether a violation of the Ex Post Facto Clause
occurred.
C. Ex Post Facto
The Ex Post Facto Clause provides: “No . . . ex post
facto Law shall be passed.” U.S. CONST. art I, § 9, cl.
3. “The ex post facto prohibition forbids the Congress
and the States to enact any law which imposes a
punishment for an act which was not punishable at
the time it was committed; or imposes additional
punishment to that then prescribed.” Weaver v.
Graham, 450 U.S. 24, 28 (1981) (footnotes omitted)
(citations and internal quotation marks omitted).
In Weaver, the Supreme Court addressed postsentencing changes to formulas for calculating “gain
time” confinement credit and found that such changes
were unconstitutional as an ex post facto law when
applied to that petitioner, whose crime was committed
before the statute was enacted. Id. at 28–36. In finding
a violation, the Court noted “two critical elements must
be present for a criminal or penal law to be ex post
facto: it must be retrospective, that is, it must apply to
events occurring before its enactment, and it must
disadvantage the offender affected by it.” Id. at 29
(footnotes omitted) (citations omitted).
The linchpin of Petitioner’s claim is that the
application of GCT credits to his sentence to
confinement at a rate of five days per month is

(22a)

retrospective. Petitioner puts forth a multi-faceted
argument to advance this claim. First, Petitioner
argues that Congress specifically delegated authority
to regulate the confinement of military prisoners, to
include prescribing policy for the administration of
GCT, to the Secretaries of the Armed Forces, not the
Secretary of Defense (SECDEF), and therefore asserts
the 2004 DTMs were effectively ultra vires and void
ab initio. Building on the conclusion that Air Force
policy regarding GCT was the exclusive province of
the Air Force, Petitioner argues that the Air Force
rules in effect on 10 June 2005, the time of his earliest
offense, determine Petitioner’s GCT. As of 10 June
2005, AFI 31–205, dated 7 April 2004, was in force and
implemented both DoDI 1325.7 and AFJI 31–215,
both of which included a provision awarding GCT at a
rate of ten days per month as of the issuance date of
AFI 31–205.
Petitioner argues that this rate of ten days per
month could only be changed by the Air Force, not by
the DTMs. Thus, according to Petitioner, GCT at a
rate of ten days per month should be applied to his
sentence—the rate in effect at the time of his earliest
offense and the date of his adjudged sentence.
Petitioner asserts his GCT is instead being calculated
using AFI 31–105, dated 15 June 2015, and that this
violates the Ex Post Facto Clause as applied to him.
Petitioner argues in the alternative that the 2004
DTMs,
even
if
controlling,
are
facially

(23a)

unconstitutional in violation of the Ex Post Facto
Clause. 4
Petitioner’s arguments, although not identical,
bear a striking resemblance to ones made by the
petitioner in Valois v. Commandant, USDB—Fort
Leavenworth, No. 13-3029-KHV, 2015 U.S. Dist.
LEXIS 137046 (D. Kan. 2015). Like Petitioner, Valois
was court-martialed by the Air Force, convicted,
received a lengthy sentence to confinement, and
transferred to the USDB to serve his sentence. Id. at
*2–4. Valois’ offenses, like those of Petitioner,
occurred after the DTMs were in effect. Id. Valois filed
a pro se petition for a writ of habeas corpus with the
United States District Court for the District of Kansas
challenging the amount of GCT that would be
administratively deducted from his sentence. Id. at
*1. Valois, like Petitioner, contended he was entitled
to GCT credit of ten days rather than five days per
month. Id. at *3– 4. Specifically, Valois also contended
that the Secretary of the Air Force (SECAF) had the
exclusive authority to determine the award of GCT,
did so, and that earlier Air Force publications
indicating a rate of ten days per month controlled in
his case. Id. Valois argued that later amendments or
modifications to those Air Force publications,
4

We have considered and reject this argument, which neither
requires additional analysis nor warrants relief. See United
States v. Matias, 25 M.J. 356, 363 (C.M.A. 1987). (“[W]e are
aware of no requirement of law that appellate courts in general
or a court of military review in particular must articulate its
reasoning on every issue raised by counsel.” (citation omitted)).

(24a)

specifically the 2004 DTMs, were either invalid or had
expired. Id. After an exhaustive trek through what the
District Court described as a “military labyrinth of
regulations” and application of the deferential
framework provided by Chevron, U.S.A., Inc. v.
Natural Resources Defense Council, Inc., 467 U.S. 837
(1984), 5 to its review of the DoD and Air Force
regulations at issue, the District Court reached a
succinct conclusion:

5

In Chevron, the Supreme Court stated:
The power of an administrative agency to
administer a congressionally created . . . program
necessarily requires the formulation of policy and
the making of rules to fill any gap left, implicitly
or explicitly, by Congress. If Congress has
explicitly left a gap for the agency to fill, there is
an express delegation of authority to the agency
to elucidate a specific provision of the statute by
regulation. Such legislative regulations are given
controlling weight unless they are arbitrary,
capricious, or manifestly contrary to the statute.
Sometimes the legislative delegation to an
agency on a particular question is implicit rather
than explicit. In such a case, a court may not
substitute its own construction of a statutory
provision for a reasonable interpretation made by
the administrator of an agency.

467 U.S. at 843–44 (alteration in original) (footnotes omitted)
(internal quotation omitted).

(25a)

In sum, the military’s view that the 2004
DTM is still valid is a reasonable
interpretation by the DoD within its
statutory authority to administer
military correctional facilities. Since this
interpretation is not clearly erroneous or
arbitrary, this Court finds that the 2004
DTM and the Air Force’s deference to
DoDI 1325.7, now DoDI 1325.07,
remains valid and that any potential
GCT for Valois is limited to five days per
month.
Valois, 2015 U.S. Dist. LEXIS 137046, at *7, *27.
We are persuaded by the analysis underpinning
the District Court’s conclusions that: (1) the 2004
DTMs directing that GCT would “be awarded at a rate
of 5 days for each month of confinement . . . regardless
of sentence or multiple sentence length,” remained in
full force until superseded in March 2013 when DoDI
1325.07 was issued and incorporated the rule; (2) the
Air Force’s deference6 to the DoD publications
remained valid; and (3) any potential GCT for Valois
was limited to five days per month.

6

The District Court characterized the Air Force’s adherence to
the DTMs as “deference.” Valois, 2015 U.S. Dist. LEXIS 137046,
at *27. We unequivocally state that the Air Force was obliged to
follow the DTMs.

(26a)

In reaching its conclusions regarding the enduring
validity7 and applicability of the 2004 DTMs to the Air
Force, the District Court found no statutory basis to
conclude that GCT policy was or is expressly reserved
to the Service Secretaries and that existing statutes
did “not prohibit the DoD from establishing superior
corrections policy” which the component service would
be required to implement. Id. at *18–19.
In order to avoid the application of the DTMs to
his case, Petitioner asserts that the authority
regarding the establishment, organization, and administration of military correctional facilities and
parole has been expressly reserved by statute to the
individual Service Secretaries and not the SECDEF.
Thus, Petitioner argues, the statutory authority to
establish GCT rules for Air Force offenders belongs
solely to the SECAF, and therefore, the DTM changes,
without timely action taken by the SECAF to adopt
them, do not apply to him. We disagree.

7

Although not raised by Petitioner, we note that Valois also
addressed whether or not the DTMs were continuously in effect
because they were not incorporated into a DoD issuance within
180 days as required by DoD policy. Id. at *25–26. The District
Court concluded “[t]he military’s regulatory scheme did not void
DTMs after 180 days. Rather, as a matter of administrative
procedure, it established a policy that DTMs be incorporated into
regulations to assist in internally updating DoD issuances.” Id.
at *26. We agree.

(27a)

The statutory provisions cited by Petitioner do not
directly address GCT.8 Further, even assuming GCT
were directly addressed, the statutes cited provide
only permissive authorities and do not expressly
reserve the authorities to a Service Secretary. The
provisions cited by Petitioner must be interpreted in
light of the whole of the statute. In pertinent part, we
note that the SECDEF “is the principal assistant to
the President in all matters relating to the
Department of Defense” and “[s]ubject to the direction
of the President . . . he has authority, direction, and
control over the Department of Defense.” 10 U.S.C.
§ 113(b). Unless preempted by the President, the
SECDEF has plenary authority over all DoD matters.
While the statutes cited by Petitioner do provide
express authority to individual Service Secretaries,
they do not divest the SECDEF of plenary authority
over the DoD. “Subject to the authority, direction, and
control of the Secretary of Defense . . . the Secretary
of the Air Force is responsible for, and has the
authority necessary to conduct, all affairs of the
Department of the Air Force . . . .” 10 U.S.C. § 8013(b).
As stated in Valois, given the statutory hierarchy
defining the relationship between the Air Force and
the DoD, “as a matter of law, the Air Force is obligated
to follow the policies and procedures of the DoD.”
Valois, 2015 U.S. Dist. LEXIS 137046, at *18.
8

“The Secretaries concerned may provide for the establishment
of such military correctional facilities as are necessary for the
confinement of offenders . . . .” 10 U.S.C. § 951(a). The “Secretary
concerned may provide a system of parole for offenders . . . .” 10
U.S.C. § 952(a).

(28a)

When the 2004 DTMs changed the calculation of
GCT from ten days to five days per month effective 1
October 2004, the change applied to the Air Force. On
10 June 2005, the earliest date of Petitioner’s offenses,
and to the present date, DoD and Air Force policy was
and is that GCT “is awarded at a rate of 5 days for
each month of confinement . . . regardless of sentence
or multiple sentence length.” This rule change was not
applied retrospectively to Petitioner and thus did not
violate the Ex Post Facto Clause. Petitioner has failed
to show the right to issuance of the writ is clear and
indisputable
and
appropriate
under
the
circumstances.
III. CONCLUSION
Accordingly, the petition for extraordinary relief in
the nature of a writ of mandamus is hereby DENIED.
FOR THE COURT

CAROL K. JOYCE
Clerk of the Court

(29a)

UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES
_______________

UNITED STATES
Appellee
v.
James W. RICHARDS IV, Lieutenant Colonel
United States Air Force, Appellant
No. 16-0727
Crim. App. No. 38346
Argued March 15, 2017—Decided July 13, 2017
Military Judge: Mark L. Allred
For Appellant: William E. Cassara, Esq. (argued);
Major Johnathan D. Legg, Major Thomas A. Smith,
and Captain Patrick A. Clary.
For Appellee: Major Mary Ellen Payne (argued);
Colonel Katherine E. Oler and Gerald R. Bruce, Esq.
(on brief).
Judge SPARKS delivered the opinion of the Court, in
which Chief Judge ERDMANN, and Judges STUCKY,
RYAN, and OHLSON, joined.
_______________

(30a)

Judge SPARKS delivered the opinion of the Court.
This case arises out of the conviction of Lieutenant
Colonel James W. Richards IV (Appellant), contrary
to his pleas, of one specification of possession of child
pornography and five specifications of indecent acts
with a male under sixteen years of age, both in
violation of Article 134, Uniform Code of Military
Justice (UCMJ), 10 U.S.C. § 934 (2012); and four
specifications of failing to obey a lawful order in
violation of Article 92, UCMJ, 10 U.S.C. § 892 (2012).
A military judge, sitting alone, sentenced Appellant to
a dismissal, seventeen years confinement, and
forfeiture of all pay and allowances. The convening
authority approved the adjudged sentence.
Appellant raised numerous issues before the
United States Air Force Court of Criminal Appeals
and, on May 2, 2016, the lower court affirmed the
findings and sentence. Appellant then filed a petition
for review with this Court. We granted review on the
issue of whether the November 9, 2011, search
authorization was overly broad in failing to limit the
dates of communications being searched.1
Without briefs, the Court granted review of an issue addressing the constitution of the lower court. That issue is
moot per our holding in United States v. Dalmazzi, 76 M.J.
1, 3 (C.A.A.F. 2016). The exact issue granted was:
1

Whether the 9 November 2011 search authorization was overbroad in failing to limit the dates of
the communications being searched, and if so,
whether the error was harmless.

(31a)

Upon review of this issue, we agree with the lower
court that the November 9, 2011, search authorization
was sufficiently particularized and that investigators
did not exceed the scope of that authorization in
searching the electronic devices in question.2
Facts
In April 2011, the Air Force Office of Special
Investigations (AFOSI) at Tyndall Air Force Base in
Florida initiated an investigation into Appellant based
on notification from the National Center for Missing
and Exploited Children that one of Appellant’s former
“little brothers”3 from the Big Brothers Big Sisters
program had alleged Appellant sexually abused him
between 1993 and 1997, prior to Appellant joining the
Air Force. Several months into their investigation,
agents received permission to place a GPS tracking
device on Appellant’s car, through which they learned
that on a number of occasions he had signed a
seventeen-year-old boy onto Tyndall Air Force Base.
On May 11, 2017, Appellant filed two additional motions requesting that the Court consider whether Appellant’s counsel was
ineffective in failing to file in a timely manner Appellant’s additional issues pursuant to United States v. Grostefon, 12 M.J. 431
(C.M.A. 1982). These motions are denied. On May 24, 2017, Appellant filed a motion for leave to correct errata in a previous motion.
This motion is granted. On May 24, 2017, and May 25, 2017, Appellant filed two separate motions for leave to supplement the record. These motions are denied.

2

Children in the Big Brothers Big Sisters program are commonly
referred to as “little brothers” and “little sisters.”

3

(32a)

Agents interviewed the boy, AP, who told them he and
Appellant had met online, developed a sexual
relationship, and continued to communicate online as
their relationship evolved. Several weeks later AP
recanted the portion of his statement about himself
and Appellant having a sexual relationship.
AFOSI coordinated with the local sheriff’s office
who assumed the primary investigative role in
Appellant’s relationship with AP. However, AFOSI
agents did utilize information from AP’s statement to
obtain a search authorization for Appellant’s residence
and person for items used to electronically
communicate with AP, requesting the seizure of “[a]ll
electronic media and power cords for devices capable of
transmitting or storing online communications.” The
affidavit accompanying the search request stated that
AFOSI, in tandem with the Bay County Sherriff’s
Office, was investigating Appellant’s violation of a
Florida statute “Computer Pornography; Traveling to
meet a minor.”4 The affidavit detailed the investigation
into Appellant’s relationship with AP, including the
fact that the sexual relationship had been ongoing
since approximately April 2011 with sexually explicit
online communications starting about a year earlier.
4

The lower court summarized the relevant section of the Florida
statute as follows:
The Florida state statute defines “traveling to meet
a minor” as, inter alia, a person who travels within
the state in order to engage in an illegal sexual act
with a child under the age of 18 years after using a
computer online or Internet service to seduce, solicit, lure or entice the child to do so.

(33a)

The affidavit did not mention Appellant’s history or
any potential allegations connected with the Big
Brothers Big Sisters program.5 On November 9, 2011,
agents seized a number of electronic devices from
Appellant’s home. The following day, the Bay County
Sherriff’s Office arrested Appellant and seized all
electronic devices on his person. Among the items
seized from Appellant himself was a personal laptop,
which was handed over to AFOSI on November 24,
2011.
AFOSI agents sent the electronic devices they had
collected to the Defense Computer Forensic Laboratory
(DCFL) so that DCFL could extract data to be
searched. The DCFL application form required
submission of both case background information and a
copy of the search authority documentation. The case
background information provided by AFOSI agent
Sara Winchester included the accusations of the
former “little brother” which formed the genesis of the
investigation and detailed how this led to the
identification of an investigation into Appellant’s
relationship to AP and the subsequent seizure of the
electronic materials. Agent Winchester requested that
DCFL:
Search SUBJECT’s Cell Phones, laptop
computers, digital cameras and memory
At one point, Special Agent Nishioka testified that he was
searching for communication between Appellant and AP or the
“little brothers.” However, there was no mention of
communication with “little brothers” in the warrant or affidavit.

5

(34a)

cards for all videos, images and possible
online communication. To include, but not
limited to the following: any and all
information saved or maintained on
SUBJECT’s cellular telephones, laptop
computers or hard drives; all associated
SIM cards, components, peripherals or
other data, relating to the matter being
investigated.
Unfortunately, SA Winchester’s request did not clarify
that the “matter being investigated” was Appellant’s
communication with AP between 2010 and 2011, not
the earlier accusation by the “little brother.” DCFL
created a mirror image of the data on the devices and
placed that data on a forensic data extraction (FDE).
As Mr. Kleeh, the forensics examiner, described the
extraction process, “it goes through the image – the
mirrored copy of the drive, it looks for those files, pictures, chat logs, Word documents, Internet history, and
it pulls them all out and throws them into a directory
on a new drive.”
The first batch of extracted data (FDE #1) was
returned to AFOSI on December 23, 2011, and around
January 4, 2012, Special Agent Nishioka conducted a
search of the data. FDE #1 contained materials found
on Appellant’s personal laptop as well as from two
seized loose hard drives. Agent Nishioka described in
his statement that “DCFL simply dumped all pictures
and online chats from these drives onto one big drive
for review.” Agent Nishioka plugged the FDE into a
stand-alone laptop and, utilizing a graphic user inter-

(35a)

face or GUI, opened the FDE in which all the materials
extracted were arranged in folders and subfolders. He
testified that he worked through the FDE folders in the
order they were listed, beginning with the “pictures”
folder. Agent Nishioka stated that he started by going
through the “attributable” folder. He then moved on to
the folders of “unattributable” material. It appears that
by using the term “unattributable” Agent Nishioka was
referring to what Mr. Kleeh testified to as unallocated or
deleted material. Mr. Kleeh testified that unallocated
materials are deleted files that remain in the system but
potentially without dates and times attached.
While searching the unallocated pictures, Agent
Nishioka encountered an image that appeared to be
child pornography. He stopped his search and sought
an additional authorization to search for child
pornography. A search of the remainder of FDE #1,
pursuant to the additional authorization, turned up
thousands of suspected child pornography images. The
discovery of child pornography on these devices formed
the basis for additional search authorizations, turning
up more images which led to the charges of possessing
child pornography and indecent acts of which
Appellant was ultimately convicted.
At trial, Appellant moved to suppress the evidence
derived from the November 9, 2011, search
authorization because it was overbroad. The military
judge denied Appellant’s motion. The scope and
propriety of that initial search authorization is now at
issue in this appeal.

(36a)

Discussion
“A military judge’s decision to admit evidence is
reviewed for an abuse of discretion.” United States v.
Hills, 75 M.J. 350, 354 (C.A.A.F. 2016). “An abuse of
discretion occurs when we determine that the military
judge’s findings of fact are clearly erroneous or that he
misapprehended the law.” United States v. Clayton, 68
M.J. 419, 423 (C.A.A.F. 2010). When we review a
decision on a motion to suppress, we consider the
evidence in the light most favorable to the prevailing
party. United States v. Cowgill, 68 M.J. 388, 390
(C.A.A.F. 2010). We review de novo questions
regarding whether a search authorization is overly
broad. United States v. Maxwell, 45 M.J. 406, 420
(C.A.A.F. 1996). “Evidence derivative of an unlawful
search, seizure, or interrogation is commonly referred
to as the ‘fruit of the poisonous tree’ and is generally
not admissible at trial.” United States v. Conklin, 63
M.J. 333, 334 (C.A.A.F. 2006) (citing Wong Sun v.
United States, 371 U.S. 471, 488 (1963)).
A search authorization, whether for a physical
location or for an electronic device, must adhere to the
standards of the Fourth Amendment of the
Constitution. The Fourth Amendment states that “no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or
things to be seized.” U.S. Const. amend. IV. This insistence on particularity is a defining aspect of search
and seizure law.

(37a)

The manifest purpose of this particularity
requirement was to prevent general
searches. By limiting the authorization to
search to the specific areas and things for
which there is probable cause to search,
the requirement ensures that the search
will be carefully tailored to its
justifications, and will not take on the
character of the wide-ranging exploratory
searches the Framers intended to prohibit.
Maryland v. Garrison, 480 U.S. 79, 84 (1987). “The
Fourth Amendment requires that a search warrant
describe the things to be seized with sufficient
particularity to prevent a general exploratory
rummaging in a person’s belongings.” United States v.
Carey, 172 F.3d 1268, 1272 (10th Cir. 1999).
Despite the importance of preserving this
particularity requirement, considerable support can be
found in federal law for the notion of achieving a
balance by not overly restricting the ability to search
electronic devices.
The prohibition of general searches is not
to be confused with a demand for precise
ex ante knowledge of the location and
content of evidence .... The proper metric
of sufficient specificity is whether it was
reasonable to provide a more specific
description of the items at that juncture of
the investigation.

(38a)

United States v. Richards, 659 F.3d 527, 541 (6th Cir.
2011) (alteration in original) (quoting United States v.
Meek, 366 F. 3d 705, 716 (9th Cir. 2004)); see id. at 540–
42 (court allowing the search of an entire server known
to contain websites harboring child pornography). “[I]t
is folly for a search warrant to attempt to structure the
mechanics of the search and a warrant imposing such
limits would unduly restrict legitimate search
objectives.” United States v. Burgess, 576 F.3d 1078,
1094–95 (10th Cir. 2009) (court upholding a warrant to
search “all computer records” for evidence of drug
trafficking). Instead of attempting to set out bright line
rules for limiting searches of electronic devices, the
courts have looked to what is reasonable under the
circumstances. “As always under the Fourth
Amendment, the standard is reasonableness.” United
States v. Hill, 459 F.3d 966, 974–77 (9th Cir. 2006)
(court upholding an off-site search of all of the
defendant’s computer storage media for evidence of
child pornography).6
Searches of electronic devices present distinct
issues surrounding where and how incriminating
evidence may be located. While we support the notion
that “warrants for computer searches must
affirmatively limit the search to evidence of specific
federal crimes or specific types of material,” United
States v. Riccardi, 405 F.3d 852, 862 (10th Cir. 2005),
we also recognize the dangers of too narrowly limiting
where investigators can go. As stated by the United
Obviously, what is reasonable in one instance may not be so in
another.

6

(39a)

States Court of Appeals for the Seventh Circuit,
“[u]nlike a physical object that can be immediately
identified as responsive to the warrant or not,
computer files may be manipulated to hide their true
contents.” United States v. Mann, 592 F.3d 779, 782
(7th Cir. 2010). “[I]n the end, there may be no practical
substitute for actually looking in many (perhaps all)
folders and sometimes at the documents contained
within those folders, and that is true whether the
search is of computer files or physical files. It is
particularly true with image files.” Burgess, 576 F.3d
at 1094; see also United States v. Williams, 592 F.3d
511, 521–22 (4th Cir. 2010) (positing an implied
authorization for officers to open each file on the
computer and view its contents, at least cursorily, to
determine whether it falls within the scope of the
warrant’s authorization. “To be effective, such a search
could not be limited to reviewing only the files’
designation or labeling, because the designation or
labeling of files on a computer can easily be
manipulated to hide their substance”). Of course our
reluctance to prescribe ex ante limitations or require
particular search methods and protocols does not render them immune from an ex post reasonableness
analysis. See, e.g., United States v. Christie, 717 F.3d
1156, 1167 (10th Cir. 2013) (“[E]ven if courts do not
specify particular search protocols up front in the
warrant application process, they retain the flexibility
to assess the reasonableness of the search protocols the
government actually employed in its search after the
fact, when the case comes to court, and in light of the
totality of the circumstances.”).

(40a)

In charting how to apply the Fourth Amendment to
searches of electronic devices, we glean from our
reading of the case law a zone in which such searches
are expansive enough to allow investigators access to
places where incriminating materials may be hidden,
yet not so broad that they become the sort of free-forall general searches the Fourth Amendment was
designed to prevent.
On one hand, it is clear that because
criminals can—and often do—hide,
mislabel, or manipulate files to conceal
criminal activity, a broad, expansive
search of the hard drive may be required....
On the other hand, ... granting the
Government a carte blanche to search
every file on the hard drive impermissibly
transforms a “limited search into a general
one.”
United States v. Stabile, 633 F.3d 219, 237 (3d Cir.
2011) (citations omitted).
Appellant argues that the November 9, 2011,
authorization was overbroad because it did not contain
a temporal limitation when that information was
available and known to investigators. Applying the
above Fourth Amendment law, we conclude that the
authorization did not require a date restriction because
it was already sufficiently particularized to prevent a
general search. Though a temporal limitation is one
possible method of tailoring a search authorization, it
is by no means a requirement. Here, the authorization

(41a)

and accompanying affidavit did not give authorities
carte blanche to search in areas clearly outside the
scope of the crime being investigated. They were
entitled to search Appellant’s electronic media for any
communication that related to his possible violation of
the Florida statute in his relationship with AP.
We also conclude that the authorization allowed for
a search of the unallocated space and through potential
communications materials that did not have an
immediately clear date associated with them. The
precise extraction process utilized by Agent Kleeh and
the accessibility of metadata on unallocated materials
was not fleshed out in trial or anywhere on the record.
However, we deduce from Mr. Kleeh’s testimony that
metadata for unallocated materials often does not exist
or is difficult to extract. We conclude that the
possibility that relevant communications could have
existed among the unallocated materials provided
sufficient basis to subject those materials to an
authorized and particularized search.
The record also does not disclose the origin of the
first image of child pornography encountered by Agent
Nishioka. Though he indicates he saw it in the folder
of unallocated or unattributable materials, we do not
know whether the specific image was drawn from the
laptop or one of the two external hard drives. A list of
images compiled by the Government as potential Rule
for Courts-Martial 404(b) evidence indicates that child
pornography from both the laptop and one of the
external hard drives appeared in the unallocated folder
viewed around January 4, 2012. This is supported by

(42a)

testimony from Mr. Kleeh. Neither Agent Nishioka nor
trial counsel indicated any obvious delineation
between materials found on individual devices in their
description of what was contained on FDE #1. The
issue of the shutdown dates of the two loose hard drives
was raised during oral argument and addressed by
both parties in subsequent motions. The FDE lists the
shutdown dates for the hard drives as 2006 and 2008,
years before Appellant initiated his relationship with
AP. Assuming the shutdown dates were indicative of
the timing of their last use, these materials were
outside the scope of the search authorization, which
described criminal activity dating no earlier than
approximately April 2010. However, because images of
child pornography from the laptop, with a last
shutdown date in 2011, appeared in the unallocated
materials Agent Nishioka searched, we conclude that
he either did discover or inevitably would have discovered child pornography that validly lay within the
scope of the search regardless of the significance of the
shutdown dates on the two loose hard drives.
Agent Nishioka’s discovery of the child pornography
images within the folder of unallocated materials was
consistent with Horton v. California and the plain view
exception to the Fourth Amendment. 496 U.S. 128
(1990). Under Horton, in order for the plain view
exception to apply: (1) the officer must not violate the
Fourth Amendment in arriving at the spot from which
the incriminating materials can be plainly viewed; (2)
the incriminating character of the materials must be
immediately apparent; and (3) the officer must have
lawful access to the object itself. Id. at 136–37. Here,

(43a)

Agent Nishioka was lawfully searching through the
extracted files based on what we have determined to be
a valid authorization when he encountered what
appeared to be child pornography among the
unallocated materials. Upon spotting the child
pornography, he properly stopped his search and
obtained a new authorization that allowed him to
search specifically for child pornography.
We hold that the November 9, 2011, search
authorization was sufficiently particularized to avoid
any violation of Appellant’s Fourth Amendment rights
and uphold the military judge’s decision not to
suppress evidence derived from the fruits of that
authorization.
Decision
The decision of the United States Air Force Court of
Criminal Appeals is affirmed.

(44a)

(45a)

(46a)

(47a)

(48a)

(49a)

(50a)

UNITED STATES AIR FORCE
COURT OF CRIMINAL APPEALS
James W. RICHARDS IV
Lieutenant Colonel (O-5)
U.S. Air Force,
Petitioner, Pro Se

)
)
)
)
)
v.
)
)
Deborah Lee JAMES
)
Secretary of the Air Force )
)
Brian S. Greenroad
)
Colonel (O-6)
)
U.S. Air Force
)
Commander
)
Air Force Security Forces
)
Center
)
)
D.L. HILTON
)
Colonel (O-6)
)
U.S. Army
)
Commandant
)
U.S. Disciplinary Barracks, )
)
Respondents
)

Misc. Dkt. No.
2017-04
ORDER

Panel 3

A petition for Extraordinary Relief in the nature of
a Writ of Mandamus received by this court on 6 June

(51a)

2017, was filed by Petitioner, pro se, under the All
Writs Act, 28 U.S.C.§ 1651. In his petition, Petitioner
requested the appointment of appellate counsel and
seeks this court to order Respondents to comply with
Air Force Instruction (AFI) 31-205, dated 7 April 2004,
and apply ten days of Good Conduct Time (GCT) credit
per month against Petitioner’s approved sentence to
confinement.
On 15 June 2016, the United States filed a motion
for leave to file and a motion to dismiss the petition for
extraordinary relief as well as a motion to submit
documents, to wit: the certificate of service and
declaration of Sergeant KS establishing the attempt to
serve Petitioner with their motion for leave to file and
motion to dismiss.
Analysis
Petitioner was convicted, contrary to his pleas, by a
general court-martial composed of a military judge
sitting alone, of one specification of possessing digital
images of minors engaging in sexually explicit conduct,
six specifications of committing an indecent act with a
male under 16 years of age, and four specifications of
failing to obey a lawful order, in violation of Articles 92
and 134, UCMJ, 10 U.S.C. §§ 892, 934. The military
judge sentenced Appellant to a dismissal, confinement
for 17 years, and forfeiture of all pay and allowances.
The convening authority approved the sentence as
adjudged. On 2 May 2016, we affirmed the findings
and sentence. United States v. Richards, No. ACM
38346 (A.F. Ct. Crim. App. 2 May 2016) (unpub. op).

(52a)

On 14 July 2016, we denied a motion for
reconsideration and reconsideration en banc. On 7
September 2016 a Petition for Grant of Review was
filed with the United States Court of Appeals for the
Armed Forces (CAAF). On 15 December 2016, CAAF
granted the petition for review (No. 16-0727/AF) and
the case is still pending at CAAF.
The All Writs Act, 28 U.S.C. § 1651(a), grants this
court authority to issue extraordinary writs necessary
or appropriate in aid of its jurisdiction. Loving v.
United States, 62 M.J. 235, 246 (C.A.A.F. 2005) (citing
Clinton v. Goldsmith, 526 U.S. 529, 534 (1999)).
However, the Act does not enlarge our jurisdiction, and
the writ must be in aid of our existing statutory
jurisdiction. Clinton, 526 U.S. at 534–35. “The courts
of criminal appeals are courts of limited jurisdiction,
defined entirely by statute.” United States v. Arness, 74
M.J. 441, 442 (C.A.A.F. 2015). Therefore, the
preliminary question is whether this court has
jurisdiction to consider a writ petition from a petitioner
whose case is docketed with our superior court.
In Moore v. Akins, 30 M.J. 249 (C.M.A. 1990), our
superior court held that once a case was certified for
review to that court, a Court of Criminal Appeals is
“divested of further authority over the case, unless
subsequently the case was remanded to it. However,
after the decision was certified to our Court, we have
authority under the All Writs Act to enter suitable
orders dealing with confinement or other pretrial
restraint of [a] petitioner.” Id. at 253.

(53a)

Accordingly, it is by the court on this 16th day of
June, 2017,
ORDERED:
That the motions for leave to file and to submit
documents are GRANTED; and
That the Petition is DENIED for lack of jurisdiction;
and
That the Petitioner is hereby notified that this court
does not possess the authority under either Article 70,
UCMJ, 10 U.S.C. § 870, or A.F. COURT OF CRIM.
APP. R. PRAC. AND PROC. 11 (19 May 2017) to
appoint appellate defense counsel to him. In
accordance with the provisions of Article 70, UCMJ,
and Rule 11, any appointment of appellate defense
counsel would be determined by The Judge Advocate
General of the Air Force.
FOR THE COURT

KURT J. BRUBAKER
Clerk of the Court

(54a)

29 August 2018
IN THE UNITED STATES AIR FORCE COURT
OF CRIMINAL APPEALS
Lieutenant Colonel (O-5)
JAMES W. RICHARDS, IV,
USAF
Petitioner,
v.
UNITED STATES
Respondent.

)
)
)
)
)
)
)
)
)
)
)

MOTION TO
SUBMIT
DOCUMENT AND
MOTION FOR
LEAVE TO
FILE MOTION TO
DISMISS
Misc. Dkt. 2017-04
Panel 3

TO THE HONORABLE, THE JUDGES OF
THE UNITED STATES AIR FORCE COURT OF
CRIMINAL APPEALS:
Pursuant to Rule 23(b) of the United States Air
Force Court of Criminal Appeals Rules of Practice and
Procedure, the United States respectfully moves to
submit the following document:


Action of the Secretary of the Air Force, dated 27
August 2018.

(55a)

This document is relevant to this Court’s jurisdiction
to address Petitioner’s request for extraordinary relief.
On 6 June 2017, Petitioner filed a Pro Se Petition
for Extraordinary Relief in the Nature of a Writ of
Mandamus with this Court.

On 14 June 2017,

Respondent filed a Motion to Dismiss the Petition for
Extraordinary Relief for a lack of jurisdiction, given
that Petitioner’s case was then pending on direct
review before the Court of Appeals for the Armed
Forces (CAAF). On 16 June 2017, this Court denied
Petitioner’s Petition based on lack of jurisdiction.
On 13 July 2017, CAAF affirmed Petitioner’s
conviction on direct review. On 14 July 2017, now
represented by counsel, Petitioner filed a Motion to
Reconsider his Petition for Extraordinary Relief and a
Request for Reconsideration En Banc pursuant to
United States v. Grostefon, 12 M.J. 431 (C.M.A. 1982).

(56a)

On 20 July 2017, Respondent filed an Opposition to
Petitioner’s Motion for Reconsideration. However, this
Court did not issue a ruling on the Motion for
Reconsideration until much later.
On 9 November 2017, on direct review, Petitioner
filed a Petition for a Writ of Certiorari with the
Supreme Court.
On 30 May 2018, Petitioner filed a Petition for
Extraordinary Relief at CAAF asking CAAF to order
this Court to act on his Motion for Reconsideration. On
4 June 2018, this Court granted Petitioner’s Motion for
Reconsideration and issued a Show Cause Order to the
United States regarding Petitioner’s Extraordinary
Writ. On 6 June 2018, Petitioner withdrew his 30 May
Petition for Extraordinary Relief from CAAF as being
moot in light of this Court’s Show Cause Order. On 21
June 2018, after being granted one enlargement of

(57a)

time, the United States filed its Answer to the Show
Cause Order.
Pursuant to Rule 23(d) of this Court’s Rules of
Practice and Procedure, the United States respectfully
moves for leave to file this motion to dismiss
Petitioner’s

Petition

for

Extraordinary

Relief,

originally filed on 6 June 2017, for a lack of
jurisdiction.
Petitioner’s case has completed direct review under
Article 71, UCMJ and is final under Article 76, UCMJ.
Petitioner’s case completed direct review on 28 June
2018, when the Supreme Court denied his petition for
certiorari.

See Article 71(c)(1)(C)(ii).

Furthermore,

Petitioner’s case became final under Article 76, UCMJ
when the Secretary of the Air Force approved
Appellant’s sentence and ordered the dismissal
executed. See Article 71(b), UCMJ; Article 76, UCMJ.

(58a)

In United States v. Sutton, ___ M.J. _____, Misc.
Dkt. No. 2018 (A.F. Ct. Crim. App. 13
July 2018) slip. op. at 6, this Court explained that a
convening authority’s order that a punitive discharge
be executed is sufficient basis to conclude that the case
is final under Article 76, UCMJ.

Likewise, the

Secretary of the Air Force’s order that Petitioner’s
dismissal be executed is a sufficient basis to conclude
that Petitioner’s case is final under Article 76, UCMJ.
In Sutton, this Court also held it does not have
“jurisdiction for writs of prohibition or mandamus
when a court-martial has completed direct review
under Article 71, UCMJ, and the case is final under
Article 76, UCMJ.” Sutton, slip op. at 6. This Court
similarly lacks jurisdiction to entertain writs of habeas
corpus when a court-martial has completed direct
review under Article 71, UCMJ, and the case is final

(59a)

under Article 76, UCMJ. United States v. Chapman,
75 M.J. 598, 600 (A.F. Ct. Crim. App. 2016).
Since Petitioner’s court-martial has completed
direct review under Article 71, UCMJ and is final
under Article 76, UCMJ, this Court lacks jurisdiction
to

address

or

grant

extraordinary relief.

Petitioner’s

request

for

Even if his request had been

styled as a writ of habeas corpus, this Court would still
lack jurisdiction to address it.

In addition to the

argument that this Court lacks jurisdiction made
within this motion, the United States continues to
maintain that this Court would not have jurisdiction to
address Petitioner’s extraordinary writ for other
reasons as well, as described in the United States’
Answer to Order to Show Cause, dated 21 June 2018.

(60a)

WHEREFORE, the United States respectfully
requests this Court grant this motion to submit
document and dismiss Petitioner’s Petition.

MARY ELLEN PAYNE
Associate Chief, Government Trial and
Appellate Counsel Division
United States Air Force
Air Force Legal Operations Agency
(240) 612-4800

JOSEPH KUBLER, Lt Col, USAF
Deputy Chief, Government Trial and
Appellate Counsel Division
Air Force Legal Operations Agency
United States Air Force
(240) 612-4800

(61a)

IN THE UNITED STATES COURT OF
APPEALS FOR THE ARMED FORCES
In Re,
JAMES W. RICHARDS, IV
Lieutenant Colonel (0-5)
U.S. Air Force,
Petitioner
v.

PETITION FOR
EXTRAORDINARY
WRIT IN THE
NATURE OF A
WRIT OF
MANDAMUS
U.S.C.A.A.F. No.

THE UNTED STATES
AIR FORCE COURT OF
CRIMINAL APPEALS,
Respondent.
TO THE HONORABLE, THE JUDGES OF THE
UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES
Preamble
Petitioner, Lieutenant Colonel (Lt Col) James
Richards, IV, USAF, respectfully requests this Court
issue an extraordinary writ in the nature of a writ of

(62a)

mandamus, directing the Air Force Court of Criminal
Appeals (AFCCA) to timely review his motion for
reconsideration and issue an opinion in his case.
I.
History of the Case
On 6 June 2017, Petitioner filed a Pro Se Petition
for Extraordinary Relief with the Air Force Court of
Criminal Appeals (AFCCA). Appendix A, page 1. On 14
June 2017 the United States filed a motion to dismiss
the Petitioner's writ for lack of jurisdiction. Appendix
B. The United States was represented by counsel in
this filing. The 14 June 2017 appearance of counsel on
behalf of the United States triggered Petitioner's right
to be represented by appellate defense counsel, thereby
entitling Petitioner to be represented by appellate
defense counsel in his response to the government's

(63a)

motion.1 Under Rule 23(c) of the Joint Courts of
Criminal Appeals Rules of Practice and Procedure, the
Petitioner had seven days to respond to this motion.
When the government attempted to serve Petitioner
with a copy of its motion to dismiss, Petitioner refused
to sign the certificate of receipt and stated, "This is
illegal to serve on me, this has to be served on
Counsel." Appendix C.
On 16 June 2017, the AFCCA granted the
government's motion to dismiss Petitioner's writ, only
two calendar days after receiving it.2 On 14 July 2017,

"Appellate Defense Counsel shall represent the accused ... (2)
when the United States is represented by counsel." Article 70,
UCMJ, 10 U.S.C. § 870, and A.F. Court of Crim. App. R. Prac. And
Proc. 11 (19 May 2017).

1

Despite the fact the United States responded to Petitioner's writ
with Counsel, the AFCCA's order, issued two days later, included
the statement that, "the Petitioner is hereby notified that this
court does not possess the authority under either Article 70,
UCMJ, 10 U.S.C. § 870, or [the AFCCA rules] to appoint appellate
defense counsel to him.”

2

(64a)

Petitioner (now represented by an appellate defense
counsel

for

this

matter)

filed

a

motion

for

reconsideration of the AFCCA's order dismissing his
writ for lack of jurisdiction and a motion for
reconsideration en banc. Appendix D. On 20 July 2017,
six days later, the government responded, opposing
Petitioner's

motion

for

reconsideration

and

reconsideration en banc. Appendix E. The government
argued in its opposition that "Given that Petitioner
chose to proceed pro se before this Court, he should not
be entitled to reconsideration of his petition merely
because counsel for the United States filed a response
to his pro se filing." Appendix E, page 2.
As of this date, the AFCCA has yet to rule on
Petitioner's

motion

for

reconsideration en banc.

(65a)

reconsideration

and

Petitioner's case was previously reviewed by this
Court under Article 67(a)(3), UCMJ, and is currently
pending a decision on his petition for a writ of certiorari
before the Supreme Court of the United States. United
States v. Richards, 76 M.J. 365 (CAAF 2017); Richards
v. United States, No. 17-701 (held since conference on
16 February 2018). This Court decided Petitioner's
case on 13 July 2017. Richards, 76 M.J. at 365.
II
Reasons Relief Has Not Been Sought Below
Petitioner has sought relief from the AFCCA in the
form of a writ petition, a motion to reconsider, and a
motion to reconsider en banc. After ruling on the
government's

motion

to

dismiss

in

two

days,

Petitioner's motion for reconsideration has now been
pending before the Air Force Court for more than ten
(10) months.

(66a)

III
Relief Sought
Petitioner respectfully requests this Court issue an
extraordinary writ in the nature of a writ of
mandamus,

ordering

Petitioner's

motion

Respondent
for

to

consider

reconsideration

and

reconsideration en banc and issue a decision within
fourteen days, thereby ensuring Petitioner has
received the benefit of counsel in responding to a
motion where the United States was represented by
counsel.
IV
Issue Presented
WHETHER PETITIONER IS ENTITLED
TO EXTRAORDINARY RELIEF WHERE
HIS MOTION TO RECONSIDER HAS
BEEN PENDING BEFORE THE AIR
FORCE COURT OF CRIMINAL APPEALS
FOR TEN (10) MONTHS.

(67a)

V
Statement of Facts
As of this filing, the lower court has not issued a
decision on Petitioner's motion for reconsideration and
reconsideration en banc. As of the date of this
filing (30 May 2018), it has been 320 days since
Petitioner's motion for reconsideration was filed at the
lower court. Counsel for Petitioner inquired as to
the status of this motion with the lower court's
paralegal in October 2017, and was informed on 19
October 2017 that, "When the Recon is decided, which
I'm sure will be pretty soon by the judge. I will assure
your [sic] notified by e-mail." Appendix F.
VI
Reasons Why Writ Should Issue
WHEN
THE
UNITED
STATES,
REPRESENTED BY COUNSEL, MOVED
TO DISMISS PETITIONER'S PRO SE

(68a)

WRIT,
PETITIONER
BECAME
ENTITLED TO RESPOND TO THE
GOVERNMENT'S MOTION WITH THE
ASSISTANCE OF COUNSEL. THE AFCCA
GRANTED THE UNITED STATES'
MOTION TWO DAYS AFTER IT WAS
FILED,
THEREBY
DEPRIVING
PETITIONER OF HIS RIGHT TO
COUNSEL.
"[M]ilitary courts, like Article III tribunals, are
empowered to issue extraordinary writs under the All
Writs Act." United States v. Denedo, 556 U.S. 904, 911
(2009). The All Writs Act is not an independent grant
of jurisdiction, nor does it expand a court's existing
statutory jurisdiction. Clinton v. Goldsmith, 526 U.S.
529, 534-35 (1999). The All Writs Act requires two
determinations: (1) whether the requested writ is in
aid of the court's existing jurisdiction; and (2) whether
the requested writ is necessary or appropriate. LRM v.
Kastenberg, 72 M.J. 364,368 (C.A.A.F. 2013).

(69a)

Petitioner has waited for more than ten months for
his motion to reconsider to be reviewed, and an
extraordinary writ is now necessary and appropriate.
This Court has previously addressed the right to be
assisted by timely and competent appellate counsel. In
United States v. May, 47 M.J. 478,479 (C.A.A.F. 1998),
the Court of Criminal Appeals erred by deciding the
case without appellant receiving the assistance of
appellate counsel. Id. Despite a court order to submit a
responsive brief by a specified date, no brief was ever
filed by either civilian defense counsel or detailed
military defense counsel after two motions for
enlargement of time. Id. at 480-481. Similarly, in
United States v. Roach, 66 M.J. 410,419 (C.A.A.F.
2008), this Court remanded the case because the
AFCCA failed to follow the procedures required to

(70a)

ensure

that

appellant

counsel

be

provided

representation under Article 70, UCMJ.
Now in this case, the United States has asserted
through counsel that, "Given that Petitioner chose to
proceed pro se before this Court, he should not be
entitled to reconsideration of his petition merely
because counsel for the United States filed a response
to his pro se filing." This position conflicts with the
mandate of Article 70(c)(2), which states, "[a]ppellate
defense counsel shall represent the accused before the
Court of Criminal Appeals ... (2) when the United
States is represented by counsel." Article 70, UCMJ. It
is irrelevant under Article 70 whether an appellant
had filed his original pleading pro se.
Petitioner now asks this Honorable Court to protect
his right to counsel by ordering the lower court to
consider and rule on his motion to reconsider and

(71a)

reconsider en banc, which was filed by his Article 70
military appellate counsel.
VII
Respondents’ Address, Telephone and Facsimile
Numbers
UNITED STATES AIR FORCE COURT
CRIMINAL APPEALS
1500 W. PERIMETER RED. SUITE 1900
JOINT BASE ANDREWS, MD 20762
(240) 612-5070 (phone)
(240) 612-5088 (facsimile)

OF

Very Respectfully Submitted

NICHOLAS W. MCCUE, Lt Col, USAF
Appellate Defense Counsel
U.S.C.A.A.F. Bar No. 33243
Air Force Legal Operations Agency
United States Air Force
1500 W. Perimeter Road, Suite 1100
Joint Base Andrews, MD 20762
(240) 612-4770

(72a)

Certificate of Filing and Service
I certify I electronically filed a copy of the foregoing
with the Clerk of Court and on the Appellate
Government Division and upon the Clerk of Court for
the AFCCA on May 30, 2018.
Very Respectfully Submitted

NICHOLAS W. MCCUE, Lt Col, USAF
Appellate Defense Counsel
U.S.C.A.A.F. Bar No. 33243
Air Force Legal Operations Agency
United States Air Force
1500 W. Perimeter Road, Suite 1100
Joint Base Andrews, MD 20762
(240) 612-4770

(73a)

